No. 20-660
IN THE SUPREME COURT OF THE UNITED STATES
_________________
EMPLOYER SOLUTIONS STAFFING GROUP, LLC, ET AL., PETITIONERS
v.
EUGENE SCALIA, SECRETARY OF LABOR
_________________
CERTIFICATE OF SERVICE
It is hereby certified that all parties required to be served have been served with copies of
the BRIEF FOR THE RESPONDENT IN OPPOSITION, via email and first-class mail,
postage prepaid, this 13th day of January 2021.
[See Attached Service List]
As required by Supreme Court Rule 33.1(h), I certify that the document contains 5,160
words, excluding the parts of the document that are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on January 13, 2021.

Jeffrey B. Wall
Acting Solicitor General
Counsel of Record
Department of Justice
Washington, D.C. 20530-0001
(202) 514-2217
January 13, 2021

Due to the continuing delay in receiving incoming mail at the Department of Justice, in
addition to mailing your brief via first-class mail, we would appreciate a fax or email copy of
your brief. If that is acceptable to you, please fax your brief to Charlene Goodwin, Supervisory
Case Management Specialist, Office of the Solicitor General, at (202) 514-8844, or email at
SupremeCtBriefs@USDOJ.gov. Ms. Goodwin’s phone number is (202) 514-2217 or 2218.

20-0660
EMPLOYER SOLUTIONS STAFFING GROUP, LLC,
ET AL.
EUGENE SCALIA, SEC. OF LABOR

REBECCA J. LEVINE
REBECCA LEVINE LAW PLLC
5200 WILLSON ROAD
SUITE 150
EDINA, MN 55424
952-836-2711
RLEVINE@REBECCALEVINELAW.COM

